No. 21-381

 

 

IN THE
Supreme Court of the United States

Tzvi WEISS, ET AL.,
Petitioners,
Vv.
NATIONAL WESTMINSTER BANK PLC,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF OF AMICI CURIAE FORMER
NATIONAL SECURITY OFFICIALS
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,983 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 8, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
